                                                                                                               V

                                   2



                                                                                2
                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM
7
                                                                                                 I/
    Case Number: I06090027'                                                                   Page 1 of 1



         The National Science Foundation (NSF) Office of Inspector General conducted a proactive
         review of grants that included cost sharing contributions in excess of $500,000 annual$. The
         purpose of the review was to assess compliance with applicable laws, regulations, and NSF
         award conditions. As part of that review, a Cooperative ~greement'with this universiq was
         selected for review.

         OIG contacted the university to request financial information and supporting documentation
         related to the grant. OIG reviewed the information submitted by the university and identified a
         possible shortfall in the cost sharing contributions made by the university to date. An
         investigation was initiated to determine if the university had mis-represented its cost shking
         contributions required by the agreement.

         We contacted the university to request additional documentation and information to clarify their
         initial submission. The university provided the additional financial documents that verified that
         the university exceeded its cost sharing requirements3. Our review did not identify any biolation
         of the cost sharing rules and regulations or potentially fraudulent activity relating to the award.
         We also determined that the amounts of cost sharing reported each year were accurate aAd were
         found to be reasonable, allocable and allowable under the terms of the award.

         Accordingly, t h s case is closed.




                                                                                                      I
